                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

 11   Case Number: A08110061                                                          11          Page 1 of 1


      I
                      NSF OIG received an allegation of plagiarized material in a newly submitted NSF
      /I
              proposal' fiom a previous NSF-funded proposal.2 Our examination of the newly submitted
              proposal determined that one of the co-p1s3 was also co-PI on the original proposal. As co-author
              of the text, the co-PI could include that text in another proposal she co-authored.

                      Our examination also indicated that the proposed project differed from the funded
              project, indicating that the PI and co-PIS were not requesting funds for already funded research.

                      Lastly, our examination showed that the PI and co-PI of the newly submitted proposal
              explicitly references previously funded proposal, informing reviewers and panelists of the similar
              work.
          ,
          '


                     The allegations were not substantiated. Accordingly, this case is closed.




I'                                                                                                                 '11
 NSF OIG Form 2 (1 1/02)
